No. 19-123
In the

Supreme Court of the United States
__________________

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.
__________________
On Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

__________________

BRIEF OF AMICI CURIAE FORMER FOSTER
CHILDREN AND FOSTER/ADOPTIVE PARENTS
AND THE CATHOLIC ASSOCIATION
FOUNDATION IN SUPPORT OF PETITIONERS

__________________

Andrea Picciotti-Bayer
Counsel of Record
The Catholic Association Foundation
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 20
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
I.

THE FOSTER CARE AND ADOPTION
CRISIS IN AMERICA DEMANDS AN “ALLHANDS-ON-DECK” APPROACH . . . . . . . . 21

II.

EXEMPTING
CSS
FROM
THE
OBLIGATION TO CERTIFY SAME-SEX
MARRIED COUPLES IS CONSISTENT
WITH THE GOALS OF FOSTER CARE . . . 24
A. CSS HAS BEEN A LONG-TIME,
TRUSTED PARTNER IN RESPONDING
TO THE NEEDS OF CHILDREN IN
PHILADELPHIA . . . . . . . . . . . . . . . . . . . 24
B. CATHOLIC-RUN AGENCIES LIKE CSS
GREATLY BENEFIT CHILDREN
AND THEIR FOSTER/ADOPTIVE
PARENTS. . . . . . . . . . . . . . . . . . . . . . . . . 25
C. CATHOLIC-RUN AGENCIES LIKE CSS
SUPPORT PERMANENT HOMES FOR
NEEDY CHILDREN . . . . . . . . . . . . . . . . 27
D. CSS DOES NOT INTERFERE WITH
THE INTERESTS OF SAME-SEX
COUPLES. . . . . . . . . . . . . . . . . . . . . . . . . 29

ii
E. ACCOMMODATING CSS’ SINCERELYHELD BELIEFS HAS FAR-REACHING
BENEFITS FOR NEEDY AND
VULNERABLE CHILDREN . . . . . . . . . . 29
III.

AN EXEMPTION FOR CSS IS REQUIRED
UNDER THE FIRST AMENDMENT AND
CONSISTENT WITH THIS COURT’S
DECISION IN OBERGEFELL . . . . . . . . . . . 31

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

iii
TABLE OF AUTHORITIES
CASES
Buck v. Gordon,
No. 1:19-CV- 286, 2019 WL 4686425
(W.D. Mich. Sept. 26, 2019) . . . . . . . . . . . . . . . . 30
Catholic Charities of Western Michigan v.
Michigan Dept. of Health and Human Services,
No. 19-000072-MM . . . . . . . . . . . . . . . . . . . . . . . 30
Church of the Lukumi Babalu Aye, Inc. v.
City of Hialeah, 508 U.S. 520 (1993) . . . . . . . . . 32
Dumont v. Gordon,
No. 2:17-cv-13080-PDB-EAS
(E.D. Mich. 2019) . . . . . . . . . . . . . . . . . . . . . . . . 30
Employment Div. v. Smith,
494 U.S. 872 (1990). . . . . . . . . . . . . . . . . . . . . . . 32
Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Comm., 138 S. Ct. 1719 (2018) . . . . . 31, 32
NIFLA v. Becerra,
138 S. Ct. 2361 (2018). . . . . . . . . . . . . . . . . . . 1, 31
Obergefell v. Hodges,
135 S. Ct. 2584 (2015). . . . . . . . . . . . . . . . . . 31, 32
Sharonell Fulton, et. al v. City of Philadelphia,
922 F.3d 140 (3d Cir. 2019) . . . . . . . . . . . . passim
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017) . . . . . . . . . . . . . . 31

iv
OTHER AUTHORITIES
“After 95 years, NY rules end Catholic adoption and
foster services in Buffalo,” Catholic News
Agency, Aug. 27, 2018 available at
https://www.catholicnewsagency.com/news/after95-years-ny-rules-end-catholic-adoption-andfoster-services-in-buffalo-60894 . . . . . . . . . . . . . 30
American Academy of Pediatrics, “Helping Foster
and Adoptive Families Cope with Trauma,”
available at https://www.aap.org/en-us/advocacyand-policy/aap-health- initiatives/healthy-fostercare-america/Documents/Guide.pdf . . . . . . . . . . 22
John Corvino, Ryan T. Anderson & Sherif Girgis,
Debating Religious Liberty and Discrimination
(2017). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Luke Goodrich, Free to Believe: The Battle over
Religious Liberty in America (2019). . . . . . . . . . 33
Jeremy Kohomban, Jennifer Rodriguez, and Ron
Haskins, “The Foster Care System was
Unprepared for the Last Drug Epidemic. Let’s
not Repeat History,” Brookings (Jan. 31, 2018),
https://www.brookings.edu/blog/upfront/2018/01/31/the-foster-care-system-wasunprepared-for-the-last-drug-epidemic-lets-notrepeat-history/. . . . . . . . . . . . . . . . . . . . . . . . . . . 21

v
Sherry Lachman, “With Coronavirus, Americas
Foster Care System is at Tipping Point,” Boston
Globe (Apr. 21, 2020),
https://www.bostonglobe.com/2020/04/21/opinio
n/with-coronavirus-americas-foster-care-systemis-tipping-point/. . . . . . . . . . . . . . . . . . . . . . . . . . 21
Gracie Bonds Staples, “Why surge in foster care
placement will follow COVID pandemic,” The
Atlanta Journal Constitution (Apr. 7, 2020),
https://www.ajc.com/lifestyles/why-surge-fostercare-placement-will-follow-covidpandemic/NKtnijOQwZpfsL8XypJsrL/ . . . . 21, 22
Terruso, Julia “Philly puts out ‘urgent’ call – 300
families needed for fostering,” The Philadelphia
Inquirer (March 8, 2018);
https://perma.cc/C7UH-GGWZ. . . . . . . . . . . . . . 22
United States Conference of Catholic Bishops,
“Discrimination against Catholic Adoption
Services,” available at http://www.usccb.org/
issues-and-action/religious-liberty/discriminationagainst-catholic-adoption-services.cfm . . . . . . . . 30
U.S. Department of Health and Human Services,
Administration for Children and Families,
“Children’s Bureau Express,” Nov. 2016, Vol. 17,
No. 8. available at
https://cbexpress.acf.
hhs.gov/index.cfm?event=website.viewArticles
&issueid=181 &articleid . . . . . . . . . . . . . . . . . . . 21

vi
U.S. Dep’t of Health and Human Services,
Administration for Children and Families, “The
AFCARS
Report”
available
at
https://www.acf.hhs.gov/sites/default/files/cb/af
carsreport25.pdf . . . . . . . . . . . . . . . . . . . . . . . . . 21
Jennifer Vickers, “COVID-19 Impacting Kids In
Need: Foster Care Are Especially at Risk,” Dave
Thomas Adoption Foundation (April 20, 2020),
https://www.davethomasfoundation.org/opinionchildren-in-foster-care-are-especially-at-risk/ . . 22
Fred Wulczyn, “Looking Ahead: The Nation’s Child
Welfare Systems after Coronavirus, Chronicle of
Social Change (Mar. 30, 2020),
https://chronicleofsocialchange.org/child-welfare2/looking-ahead-the-nations-child-welfaresystems-after-coronavirus/41738 . . . . . . . . . . . . 22

1
INTEREST OF AMICI CURIAE1
THE CATHOLIC ASSOCIATION FOUNDATION
(“TCA”), is a lay organization dedicated to being a
faithful voice for Catholics in the public square. The
Catholic church and Catholics have played a leading
role in founding and running foster care and adoption
placement agencies across the United States. These
agencies successfully and effectively partner with state
and local governments to find and place needy children
in stable and loving homes.
TCA frequently promotes the work of the Church
and her faithful and is a strong defender of religious
freedom. In furtherance of this mission, TCA has filed
amicus briefs in this Court, including in NIFLA v.
Becerra, 138 S. Ct. 2361 (2018), Espinoza v. Montana
Dept. of Revenue, No. 18-1195, and Little Sisters of the
Poor v. Pennsylvania, et al., Nos. 19-431, 19-454.
Amici former foster children and foster/adoptive
parents served by Catholic Social Services (“CSS”) in
Philadelphia, Pennsylvania and other Catholic-run
foster care and adoption agencies, listed and described
below, attest to the dignified placement and support
that CSS and Catholic-run agencies provide to foster
children and foster/adoptive parents.
Amici strongly oppose the City of Philadelphia’s
decision to freeze intake referrals of foster children to
CSS and to impose unconstitutional conditions on
1

Amici state that no counsel for a party authored this brief in
whole or in part and no counsel or party made a monetary
contribution intended to fund the preparation or submission of this
brief. All parties have consented to the filing of this brief.

2
future referrals that have forced CSS to shut down its
foster care program for new at-risk kids needing foster
homes.
THOMAS PAUL believes he was raised by a saint.
Thomas was one of more than 100 foster children
that Cecila Paul, one of the original plaintiffs in this
action2, received into her Philadelphia home. Thomas
came to live with the Pauls when he was a newborn.
His biological parents were involved, as Thomas says
today, “in some bad stuff.” CSS placed him and his
older brother Andrew (known as Drew), only a year his
senior, into foster care with the Pauls, and the Pauls
later adopted both boys.
Although the two boys later made contact with their
biological parents, Thomas and Drew both consider Ms.
Paul to be the only mother they ever knew. Thomas
said, “I think that whoever raised you is your parent.”
Thomas met many other foster children who were
placed with the Pauls. Like Thomas, many had
suffered abuse or abandonment. He recalls it was hard
when the kids he had gotten used to left. “I have seen
so much in my life that is sad,” he said, but “joy
overcomes all of the pain.”
Thomas is grateful to CSS for its unceasing support
of Ms. Paul and foster children like him. He remembers
feeling special when CSS sent presents at Christmas.
2

Ms. Paul, who had been widowed years earlier, died during the
pendency of this action. Her positive influence in Thomas’ life was
specifically acknowledged by the panel. See Sharonell Fulton, et.
al v. City of Philadelphia, 922 F.3d 140, 151 n.3 (3d Cir. 2019).

3
The attention “helped him to keep his mind off any of
the hard times.” He adds that CSS visits and
assessments always helped “get kids out of their
darkness.”
Growing up in Ms. Paul’s house prepared Thomas
for life. She encouraged him to “work hard, focus and
do what you like.” Today, he’s 35 years old, a general
contractor and the father of two young children. He
credits the support he found at the Paul home for his
success in life. He remembers Ms. Paul teaching him
that, “No matter how hard life comes at you, keep
going, keep your head up.”
As a father, he looked to Ms. Paul for advice and
support in parenting. “She handled kids, those with
emotional problems, so well.” He also believes that
having been adopted after foster care has helped him to
be a better father. It inspired Thomas to “give
something to my own children that I did not get from
my biological parents.”
The most important gift he received as a child was
love. “Love is everything,” said Thomas. “It goes a long
way if you feel special – to know that someone actually
wanted you.” Being wanted by someone like Ms. Paul,
someone that had “the biggest heart I know,” helped
him cope with having been abandoned as a baby.
Thomas finds the possibility of CSS shutting down
its foster care program – a program that has done so
much for him – horrible. “I want other kids to have the
opportunity that I did,” he said. “If they get shattered
by situations that are not their fault, they should still
have the chance to dream.”

4
ANDREAS AND MICHELLE WIDMER met
almost 35 years ago. Michelle was finishing a year
abroad in Rome when a friend introduced her to
Andreas, a young Swiss Guard stationed at the
Vatican. As Andreas recalls, “It was love at first sight.”
Andreas found his way to the United States, and
the couple were married soon thereafter. Jobs and
careers followed, but not babies. Unable to conceive,
the Widmers decided instead to adopt a child. They
contacted four Boston adoption agencies in what
Andreas calls a “very methodical process.” At the first
agency, a staff member asked, “What kind of a child
would you like?”
The Widmers were shocked. “Shelly and I felt that
this was cruel or vulgar,” Andreas said. “I worked for
years in sales. It felt like a trade.” The Widmers then
contacted the adoption program run by Catholic
Charities of the Archdiocese of Boston. They signed up
to attend Saturday morning meetings for couples
interested in adopting.
At the first meeting, agency director Tina Morgan
(“a tough Irish lady with a typical Boston accent”) had
a strong message for the 15 couples gathered in the
basement of a small Catholic church in Harvard
Square. “If you are here to somehow fulfill yourself,”
said Tina, “you shouldn’t come back.”
This was the Catholic agency’s perspective on
adoption. Morgan proceeded to hand out a
questionnaire soliciting each couple’s reasons for
considering adoption. “If your answers are mostly
about you, this agency is not for you,” said Morgan.

5
“We need people committed to helping the child, not
hoping to realize their own dreams.”
Andreas and Michelle were impressed with the
“tough as nails” approach, but not everyone was.
Several couples dropped out. Morgan softened over the
coming weeks as she prepared the couples for home
studies and parenting. “You could see they had 200
years of doing this,” remarks Andreas, “and they knew
what they were doing.”
In June 2004, Eli was born to a young Cape
Verdean woman who asked the hospital nurses to
contact Catholic Charities to handle the adoption.
Morgan called the Widmers to see if they were willing
to adopt a child outside of either spouse’s race or
ethnicity. Andreas and Michelle did not hesitate.
“November 18, 2004,” remarks Andreas, “is when we
became a family.”
Catholic Charities and its counselors provided the
Widmers with invaluable guidance before and after
Eli’s adoption. Catholic Charities of Boston facilitated
“open adoptions” that allowed for some level of contact
between the birth parents and the adoptive child. The
Widmers are certain that Eli’s biological mother heard
the same story about keeping the focus on the child.
Over the years, they have communicated with Eli’s
biological mother and the foster family that cared for
Eli before his adoption. As Andreas says, “We learned
from the staff at Catholic Charities of the importance
of maintaining every relationship Eli has in his life.”

6
Eli Widmer was one of the last children adopted
through Catholic Charities in Boston. Under pressure
to coordinate adoptions with same-sex couples, Boston’s
Cardinal Sean O’Malley had no choice but to close
Catholic Charities’ adoption program in 2006. Andreas
and Michelle lament the agency’s closure. “When
adoption becomes a service subject to what is
‘politically correct,’” says Andreas, “it is no longer about
the children.”
WINNIE PERRY thought she would be a foster
mother over just one summer. But that was 40 years
and almost 100 foster children ago.
Ms. Perry first learned about CSS after reading its
request for foster parents in her local Philly newspaper.
While not Catholic herself, Ms. Perry called the agency.
Her mother cared for foster children and Ms. Perry felt
moved to do the same. Of her four decades serving as a
foster parent, Ms. Perry says, “It wasn’t good all the
time. It wasn’t happy times all the time. But it was
worthwhile. It was very rewarding.... I could give kids
something they did not have – a stable home.”
From the start, CSS supported the Perrys as foster
parents. Shortly after the Perrys started as foster
parents, the couple had an argument. Mr. Perry called
CSS to pick up the foster children in their care. Rather
than sever ties with the couple, CSS staff worked with
the couple to resolve their conflict and the couple’s
home stayed open for needy children.
CSS staff and case workers have continued their
support over the years. “I have a lot of rules in my
house,” says Ms. Perry. “But I would call CSS if

7
anything happened that I couldn’t handle.” They
arranged for therapists to help with the children. The
kids were always CSS’ first priority, but CSS was
always there for Ms. Perry too. “They always supported
me,” she says, “I never felt like I was alone.”
Each child placed in the Perry home became a
member of the family. Ms. Perry says, “We didn’t use
the term ‘foster children’ at home. They are our
children.”
While most children stayed for only a year or so, a
handful still keep in touch with Ms. Perry to this day.
Two are Anthony and Adrienne. Both came to the
Perrys straight from the hospital, just days old. The
Perrys adopted Anthony (now 35 years old) and Ms.
Perry assumed legal custody of Adrienne while
maintaining a close relationship with the girl’s birth
mother.
Ms. Perry understands the importance of a child’s
relationship with his or her biological parents, and she
knows that, if possible, a child should return home to
his or her parents or relatives. “I learned a long time
ago my place. I was not first. The natural parents are
first. Sometimes this hurt a lot.”
Ms. Perry was often called to receive needy children
in the early morning hours. That’s what happened with
siblings James, three, and Julia, eight months.
Although she thought the children were going to stay
with her for just a short time, Ms. Perry ended up
adopting the children. James is now eleven and Julia
is nine, and Ms. Perry keeps them in touch with their
biological grandmother by arranging frequent visits.

8
What would happen if CSS is forced to close its
doors? “It would be a terrible thing,” says Winnie
Perry. “There are so many children out there who need
their help. They help the children and, as much as they
can, the natural parents. They help the foster parents
a lot. They give us so much support.”
ADRIENNE COX came to live with her
Philadelphia foster parent amici Winnie Perry when
she was a newborn. Dealing with an abusive husband,
Adrienne’s mother thought foster care would be best for
her daughter. Adrienne ended up living her entire
childhood with the Perrys, though they saw that she
maintained a close relationship with her biological
mother.
“Ms. Perry had a lot of rules,” says Adrienne, but “I
learned a lot.” One of the most important lessons she
was taught was that despite your past, you can do
anything. Adrienne recalls that “all I had to do was my
best in whatever I started.”
Adrienne not only graduated from high school and
college, but earned a master’s degree, as well. Now a
successful professional, Adrienne appreciates the
nudges she received from Ms. Perry along the way. “My
mom encouraged me to go to college,” says Adrienne,
“even though I did not want to go at the time.”
Mr. Perry has since passed away, but Adrienne’s
connection to him could not have been stronger. “He
was my dad. He was everything to me. Many of my
friends growing up did not even know that the Perrys
were not my biological parents.”

9
Faith was important to the Perrys. “We were
encouraged to do what is right and do right by others,”
Adrienne recalls.
Adrienne eventually became a CSS-certified foster
parent herself. Although she had to convince her
initially hesitant husband, the couple fostered and
later adopted their first two children. Says Adrienne, “I
felt that I had to give what was given to me.”
She credits the way she parents her own children to
the Perry’s example. For many foster children, learning
to love is hard. According to Adrienne, it happens only
if “the foster child is considered her foster parents’
child.” “I go out of my way to make sure that my love
for each of my children is clear to them,” Adrienne
says. “A child’s ability to love is important. It opens up
the door for the child to receive anything else they
need.”
She considers the shutdown of CSS’s foster program
an injustice. In her opinion, CSS did more than arrange
a safe place for a needy child to live. “CSS gave me a
family,” says Adrienne. “Everyone needs a family.”
BEN AND GAIA ROVAGNATI emigrated to the
United States from Italy shortly after they were
married in 2004.
A few years into marriage, doctors told the couple
they could not have children. Shortly after receiving
the news, they flew back to Italy from Chicago to visit
family and friends. During their visit, Ben and Gaia
spent the day with Cometa -- a group of Italian families
with foster and adopted children. “The whole day we
were filled with awe and gratitude,” Gaia says. Shortly

10
after their return to the United States, the Rovagnatis
met an American couple who had just adopted their
second child. These back-to-back encounters left a
lasting impression on Ben and Gaia. “The openness,
the hope, and the joy they communicated,” remarks
Ben, “was simply exceptional.”
The Rovagnatis decided to embark on what Gaia
calls their “adoption adventure.” They contacted
several adoption agencies in their hometown of
Chicago. Most agencies, explains Ben, “advertise being
able to quickly deliver you a child.” Catholic Charities
was different. Ben recalls that they were “clearly
looking for the good of birthparents, their children, and
adoptive families.” At that time, Catholic Charities of
Chicago coordinated adoption placement with its
maternity center. “The possibility of adoption was not
a mechanical transaction for the agency,” says Ben.
“They weren’t going to just do what we wanted, but
what was best for the child and the birth parents.”
Two years after first contacting Catholic Charities,
the Rovagnatis welcomed a daughter into their home.
The girl’s biological mother, a young African-American
teen, was overwhelmed by the demands of raising a
newborn. Relatives encouraged her to contact Catholic
Charities. She decided adoption was best for her threemonth-old baby. Today, nine years after the adoption
was finalized, Catholic Charities continues to help the
Rovagnatis send letters and photos to their child’s birth
mother. Ben and Gaia felt such joy after adopting their
daughter that they immediately sought to adopt
another child.

11
A 2011 Illinois law requires all foster care and
adoption agencies agree to place children in same-sex
households. Unable to comply and violate church
teachings, Catholic Charities of Illinois stopped placing
children altogether. They introduced the Rovagnatis to
an out-of-state adoption agency. After a three-year
wait, Ben and Gaia adopted their second daughter
shortly after she was born. Catholic Charities
continued to support the family with post-adoption
visits.
Both Rovagnati girls are African-American. Ben and
Gaia are aware that there will be challenges for their
girls. Catholic Charities of Chicago continues to provide
good counsel and a community for the Rovagnati
family. Every year their family attends gatherings
hosted by the agency for families and social workers.
“The agency is forever,” Ben says. “It is not just for the
moment of placement.”
“Adopting a child is not like going to the
supermarket,” Ben remarks. “Catholic Charities was
not just sponsoring something, but instead focused on
the human experience of hospitality and generosity
found in adoption.”
KAREN QUINN has been a CSS-certified foster
mother in Philadelphia for 30 years. She has lost count
of how many foster children she and her husband have
cared for over three decades, but thinks the number is
“well over 30.” Of these children, Karen and her
husband have adopted five, and are legal guardians to
one other.

12
Karen started caring for foster children after
reading a request in her parish bulletin for long-term
foster care providers for a needy child, Jamie. Jamie
was four at the time, and the Quinns adopted her at
age seven.
The next two children who came to her home were
Debby, two, and Gus, eight. The two siblings stayed
with the Quinns for 13 months. Karen remembers
picking the young children up at the CSS office: “Gus
was a skinny little boy, and Debby had a very sad face.
Her eyes were not alive when we got her.” After just a
few months in the Quinn home, however, Karen
noticed that Debby’s eyes “lit up.” She says that seeing
the positive effect of a stable foster home on Debby is
why she kept doing it for so long.
Karen credits CSS for its unwavering commitment
to supporting her as a foster parent. When placing a
child in her home, CSS “gave every bit of information
they had about the child. Often they were more
responsive than the DHS social worker assigned.” “Any
question you had that you couldn’t solve yourself,”
Karen says, “you could ask the people at CSS.”
CSS’ contact with Karen and her foster children
went far beyond monthly home visits. Most of the kids
came with very little clothing especially if they were a
newborns. But CSS would always ask Karen what she
needed and either help supply additional clothing or
provide an allowance. If Karen missed CSS-sponsored
Christmas parties, the agency never forgot to send a
gift for both the foster child and Karen’s now-adopted
children.

13
DHS regulations for foster care have changed over
the past 30 years, but CSS case workers always made
sure that Karen knew of the changes and was in
compliance. Karen also notes that because of CSS’
extended network of programs, both foster children and
biological parents get referrals for care and services
that other agencies can’t provide. For example, when
one of Karen’s foster children needed special care and
behavioral support, CSS coordinated therapy without
delay.
Karen and her husband are committed to helping
all of their foster children maintain healthy
relationships with siblings, parents, and other
relatives. One foster son, Gabriel, came to Karen’s
home when he was only nine months old. Karen
learned that Gabriel had two siblings living in foster
care in Ocean City, New Jersey, where Karen’s family
visited on summer vacations. Karen coordinated a visit
with the foster parent in Ocean City, enabling the
siblings to spend time with their baby brother.
What would happen if CSS’ foster program is shut
down forever? “I would like to continue to do this, but
I don’t want to do it without the support of Catholic
Social Services,” Karen says. “I am just not too happy
with the other agencies out there. They play by their
own book of rules…. My gift is to take care of these
kids – give them a better start when they come to me
and send them back as strong as they can be.”
JAMIE HILL, now 34 years old, was placed into
foster care with amici Karen Quinn when she was four.
“I know very little about the reasons for being placed
into foster care,” she recalls today. “I know that there

14
was some abuse and that a significant head injury led
me to being taken from my home.”
But Jamie has clear recollection of her life at the
Quinns: “lots of one-on-one time playing cards or
memory games,” and “lots of great memories.”
Like many foster children, Jamie struggled as a
child. The early years of abuse had taken their toll.
“Being a foster kid was hard. For 20 years it was really
tough. There were a lot of hard times for me,” she says.
“Growing up in the Quinn’s home I always knew that
I was loved, but it took me a long time to accept that.”
The Quinns ultimately adopted Jamie. When she
talks about the Quinns, Jamie calls them “Mom and
Dad.” Ms. Quinn was particularly attentive to Jamie:
“When my mother saw that I was good at something,
she tried to expose me to anything that would help me
develop that talent.”
As the oldest child in the Quinn home, Jamie grew
up “thinking that it was cool to have the home open for
foster children.” But she also saw first-hand the
damage that unhealthy homes had inflicted on the new
children placed with the Quinns. “You can tell right off
the bat what kind of home a child came from,” she says.
“Lots of [these] kids were not held.” That changed once
they arrived at the Quinns. They were held and
“spoiled” with affection. “Any child that comes into my
parents’ home is receiving a good home,” Jamie says.
“My parents were very accepting of everyone.”
Thanks to the Quinns’ support, Jamie graduated
from both high school and college, and completed
training as a physician’s assistant.

15
When Jamie married in 2014, Mr. Quinn, a deacon
in their church, suggested he officiate the wedding. But
Jamie insisted that he walk her down the aisle. “It took
a lot for me to get a dad,” she says, “and I wanted him
to be a dad that day.”
That day, three of her adopted sisters were among
Jamie’s bridesmaids. Today, Jamie and her husband
have two children of their own.
Jamie keeps in touch with one of her biological
sisters. Maintaining this relationship has not been easy
for the two sisters. “Her life did not turn out like mine,”
Jamie says. “Sometimes I feel that she is jealous of me
because I got the better home, because I got out
younger than she did.”
Jamie’s reaction upon learning that CSS might close
its program: “We are better than this. It is not like this
issue suddenly came up. This has been part of what the
Catholic Church has taught forever. I was really
shocked that the government could force a religious
organization to do something against what they believe
in.”
Jamie thinks that “a foster home is the difference
between life and death” for some kids. Jamie knows
that she herself was on a bad path because of the
trauma she suffered as a child. Her placement at the
Quinn home was a crossroads. “If you have a good
foster home – one where a parent treats you like their
child -- you can make it. Without one, you can fall
through the cracks.”
“CSS needs to keep open,” says Jamie. “It saved my
life.”

16
AMANDA KAPENGA’s doctor had advised her and
her husband Dan to avoid having any more children
after their younger daughter was diagnosed with a low
blood platelet count. Amanda, a former preschool
teacher, loves kids. So does Dan. They always wanted
a larger family and, therefore, decided to adopt. A
friend recommended that Amanda contact Catholic
Charities of West Michigan, an agency known for
offering dual foster-adoption licenses. Although
Catholic Charities is located 35 miles from the
Kapenga’s, Amanda says she “felt that God was telling
me that Catholic Charities was where we should go.”
That was nine years ago. Since then, the Kapengas
have fostered 13 children through Catholic Charities.
Today, they’re working with the agency to adopt the
two young children they are currently fostering. “Our
perspective changed completely after fostering our first
child,” Amanda says. “We discovered a love for foster
care.”
Neither Amanda nor Dan is Catholic. That does not
matter to Catholic Charities, since the organization
considers its foster and adoption programs as
ministries to serve people of all faiths. Amanda and
Dan’s Christian faith is important to them, however,
and they are thankful to work with a faith-based
agency like Catholic Charities.
“I love how when we talk about our faith during a
home visit or licensing renewal it is very much
appreciated,” says Amanda. Her faith has kept her
fostering Michigan’s needy children all these years,
since the work, as she points out, is not always easy or
pretty.

17
Almost all of the children Amanda and Dan have
fostered have returned to their homes of origin.
Catholic Charities encourages this whenever possible,
and works with foster parents to embrace this goal as
well. “I never felt like the caseworkers were not on our
side even while they were also supportive of the biofamily,” Amanda recalls.
In short, the well-being of the foster children is
always the primary concern of Catholic Charities of
West Michigan. It runs a “visit house” so foster
children can attend supervised visits with their
biological parents in a home-like setting. Caseworkers
have helped Amanda and other foster parents so that
biological parents can attend pediatrician
appointments when possible. Amanda, for her part, has
never wanted the biological parents of their foster
children to miss out on important milestones in their
children’s lives. She has helped her foster children
make Mother’s or Father’s Day presents for their
biological parents. She sends parents photographs of
their children with the hope of strengthening the
parental bond. And Amanda keeps in touch with many
of her foster children after they are reunited with their
families.
Sometimes, however, reunifying a foster child with
his or her biological parents is impossible. Amanda
and Dan are currently fostering siblings (a three-yearold girl and 15-month-old boy) whose drug- and alcoholaddicted parents have relinquished their parental
rights. Amanda is nothing but grateful to the biological
parents. “Maybe they did so much that was wrong,” she
says, “but they did one great thing – they chose life.”

18
Amanda and Dan consider Catholic Charities to be
“part of the family.” Amanda is a volunteer mentor for
other foster mothers working with the agency. She is
concerned that state officials have threatened to cut
ties with Catholic Charities of West Michigan if the
agency does not agree to place children in same-sex
households. “I can’t even imagine switching agencies,”
says this veteran foster mom.
WAYNE THOMAS was the answer to three-yearold Brittany’s prayer over 25 years ago.
Brittany, the grandchild of petitioner Sharonell
Fulton, prayed for someone to play with as she watched
the playground at the Our Lady of Victory Catholic
School across from the Fulton house in West
Philadelphia. At the same time, Wayne and his brother
Sean were living in a dilapidated house with a drugaddicted uncle and aunt who fought viciously. During
one fight, the boys’ uncle mistakenly threw boiling
water on the boys. Wayne thinks a neighbor called the
police after hearing the cries, and an ambulance soon
rushed the young boys to the hospital.
Upon their discharge, CSS placed Wayne and Sean
with Ms. Fulton. Wayne stayed with Brittany and her
younger siblings in the Fulton home until he was 19
years old. Wayne and his brother consider Brittany and
Ms. Fulton’s other two grandchildren their siblings.
And Wayne calls Ms. Fulton “Meme.” “Meme did not
treat us any different than her own,” says Wayne.
“What was theirs was ours.”
Now 34, Wayne was one of his biological mother’s
twelve children. She struggled with drug addiction and

19
was incarcerated during much of Wayne’s early
childhood. “Meme was like a mother to me,” says
Wayne. Although Wayne’s father also battled addiction
to drugs, he was a more constant presence in Wayne’s
life, thanks to Meme and CSS. They arranged for the
boys’ visits with their father and other siblings, halfsiblings and extended relatives. After Wayne’s parents
were clean, they would visit more frequently and even
join in birthday celebrations at Meme’s house.
Meme never sought to adopt the boys. “She believed
that since we had parents, she was there to help in any
way she could to keep us connected to them,” Wayne
says. “But at the same time, she would not let anything
bad ever happen to us.” Even though Wayne’s parents
were able to get back on their feet eventually, Wayne
and Sean felt that Ms. Fulton’s home was their home.
Wayne says, “I was happy with Meme.”
He credits Meme and CSS for his success in life. As
a sixth grader, Wayne represented his school at the
World Youth Day in Germany in 2005, an honor Meme
talks about to this day. After graduating from middle
school, Wayne went on to study at Mercy Career and
Technical School, a private, Catholic vocational high
school. Wayne accepted a job as an HVAC technician
and worked with the same company for the past 15
years. “I look at my life and the lives of my other
siblings who did not go to foster care,” he says. “I think
that my life is better because of what foster care gave
me.”
Meme opened her home to other foster children over
the years. Wayne remembers that Meme and Wayne
would plant a tree whenever a new foster child came to

20
live with them. “She said that the tree represented new
growth, new opportunities,” recalls Wayne. “Now when
I visit Meme’s home, I see those trees. I think about my
life – still growing, still thriving.”
What will happen if CSS never reopens its foster
care program? “Everything I went through that
involved them gave me so much hope,” Wayne says.
CSS staff “bring a positive respect to upcoming children
that need their help. And mothers who want to foster
will lose a great agency.”
SUMMARY OF ARGUMENT
For decades, CSS has been a trusted and reliable
partner to the City of Philadelphia in placing needy
children in loving and stable homes. Catholic-run foster
care and adoption programs like CSS offer unique
support to foster and adoptive children and their
families. These agencies focus on the needs of the child
rather than just the desires of the prospective parents.
Catholic-run agencies support, whenever possible, a
child’s return to his or her family of origin or an
alternative, permanent, “forever” home.
The City’s demand for ideological conformity in
support of same-sex marriages motivated its exclusion
of CSS and is not cured because a “neutral” antidiscrimination policy is involved. Nor does this Court’s
directive for legal recognition of same-sex marriage
justify banishing from the public square people with a
religious belief in the traditional definition of marriage.
On the contrary, the free exercise and free speech
protections of the First Amendment demand
reinstating CSS as a foster care provider and

21
exempting the agency from the obligation to certify
same-sex married couples.
ARGUMENT
I.

THE FOSTER CARE AND ADOPTION
CRISIS IN AMERICA DEMANDS AN “ALLHANDS-ON-DECK” APPROACH

Over 400,000 children and youth are living in foster
care in the United States today.3 Many children have
recently come into the nation’s foster care system as a
result of parental drug addiction, particularly addiction
to opioids.4 Cases of neglect or abuse linked to the
health of parents and the economic and psychological
strains caused by the coronavirus pandemic will only
increase the number of children in need of fostering.5
3

U.S. Dep’t of Health and Human Services, Administration for
Children and Families, “The AF CARS Report,”
https://www.acf.hhs.gov/sites/default/files/cb/afcarsreport26.pdf
(During FY 2018, 437,283 children were in foster care.)

4

U.S. Department of Health and Human Services, Administration
for Children and Families, “Children’s Bureau Express,” Nov.
2016, Vol. 17, No. 8., https://cbexpress.acf.hhs.gov/index.cfm?event
=website.viewArticles&issueid=181&sectionid=1&articleid=4855;
Jeremy Kohomban, Jennifer Rodriguez, and Ron Haskins, “The
Foster Care System was Unprepared for the Last Drug Epidemic.
Let’s not Repeat History,” Brookings (Jan. 31, 2018),
https://www.brookings.edu/blog/up-front/2018/01/31/the-fostercare-system-was-unprepared-for-the-last-drug-epidemic-lets-notrepeat-history/

5

See e.g., Sherry Lachman, “With Coronavirus, Americas Foster
Care System is at Tipping Point,” Boston Globe (Apr. 21, 2020),
https://www.bostonglobe.com/2020/04/21/opinion/with-coronavirusamericas-foster-care-system-is-tipping-point/; Gracie Bonds
Staples, “Why surge in foster care placement will follow COVID

22
Skilled and nurturing foster parents can make the
difference between a child struggling or flourishing.6
Now more than ever, foster families need competent
and experienced agencies.
As in most cities across the country, children in
need of foster care in Philadelphia outnumber the
homes available and prepared to foster them. In March
2018, the City put out an urgent call for an additional
300 foster families to respond to this need.7 At the
same time, and despite decades of successfully
partnering with CSS, city officials told CSS that they
would stop referring children to them unless CSS
agreed to endorse same-sex married couples as foster
parents. Fulton, 922 F.3d at 149. The City’s threat
came despite the fact that not one same-sex couple had
ever approached CSS seeking to become foster parents.
pandemic,” The Atlanta Journal Constitution (Apr. 7, 2020),
https://www.ajc.com/lifestyles/why-surge-foster-care-placementwill-follow-covid-pandemic/NKtnijOQwZpfsL8XypJsrL/; Jennifer
Vickers, “COVID-19 Impacting Kids In Need: Foster Care Are
Especially at Risk,” Dave Thomas Adoption Foundation (April 20,
2020), https://www.davethomasfoundation.org/opinion-children-infoster-care-are-especially-at-risk/; Fred Wulczyn, “Looking Ahead:
The Nation’s Child Welfare Systems after Coronavirus, Chronicle
of Social Change (Mar. 30, 2020), https://chronicleofsocialchange.
org/child-welfare-2/looking-ahead-the-nations-child-welfaresystems-after-coronavirus/41738
6

See e.g., American Academy of Pediatrics, “Helping Foster and
Adoptive Families Cope with Trauma,” at page 2,
https://www.aap.org/en-us/advocacy-and-policy/aap-healthinitiatives/healthy-foster-care-america/Documents/Guide.pdf

7

See also, Julia Terruso, “Philly Puts Out ‘Urgent’ Call – 300
Families Need for Fostering,” Philadelphia Inquirer (Mar. 8, 2018);
https://perma.cc/C7UH-GGWZ.

23
Id. at 148. CSS explained that it is committed to
operating in ways that are fully consistent with all
Catholic teaching, particularly regarding the nature of
marriage. CSS suggested referring any same-sex couple
that may come to the agency in the future seeking to
become foster parents to another agency. Petitioners’
Brief on the Merits at 9. Agencies routinely do this for
a variety of reasons. Id. at 28 (“evidence shows that
agencies make referrals ‘all the time.’”).
Despite its fruitful partnership with CSS and
despite the agency’s collaborative spirit, Philadelphia
officials rejected CSS’ proposal and unleashed a
firestorm, condemning CSS’ sincerely-held religious
beliefs on marriage. In what can only be understood as
retaliation, the City froze CSS intake of children in
need of fostering and has since refused to renew CSS’
annual foster care contract.
The staggering number of children in need of safe
and stable foster homes demands an “all-hands-ondeck” approach. Instead, the City places a premium on
ideological conformity and obstinately refuses to
accommodate conscientious religious objectors.

24
II.

EXEMPTING
CSS
FROM
THE
OBLIGATION TO CERTIFY SAME-SEX
MARRIED COUPLES IS CONSISTENT
WITH THE GOALS OF FOSTER CARE
A. CSS HAS BEEN A LONG-TIME,
TRUSTED PARTNER IN RESPONDING
TO THE NEEDS OF CHILDREN IN
PHILADELPHIA

The Catholic Church in Philadelphia has a longstanding tradition of caring for children in need. See
Fulton, 922 F.3d at 147. Beginning in the early 1900s,
the Catholic Children’s Bureau was established and
staffed by Missionary Sisters of the Blessed Trinity,
early Catholic pioneers in social work in the United
States. Id. In the 1950s, the City began partnering with
the Church and other private agencies to facilitate
foster care placements.8 CSS succeeds because of its
institutional experience and unwavering commitment
to the good of foster children and their families. The
court of appeals recognized CSS’ role as a trusted and
effective agency, noting “the long and constructive
relationship between the parties.” Fulton, 922 F.3d at
147 n. 1.
Amici Thomas Paul thinks of “all of the
opportunities” he had growing up thanks to being
placed by CSS in Ms. Paul’s foster home.
Amici foster mother Karen Quinn says that CSS
went “above and beyond” meeting the material needs of
8

Today, CSS can only place children in foster homes if it has a
contract with the City to do so. See Petitioners’ Brief on the Merits
at 5-6.

25
children placed in her home. Her kids received the help
they needed right away and “without being placed on
a waiting list.”
Amici foster mother Winnie Perry similarly notes
that CSS staff were there for “anything I couldn’t
handle.”
Amici Adrienne Cox credits CSS with offering
something “unique.” She believes that has something
to do with their expectations of their foster parents
that made her experience different from what was
experienced by other former foster children she has
known. That’s why, when Adrienne and her husband
chose to become foster parents, they chose CSS to help
them become foster parents. Adrienne’s connection is
so strong that she refers to CSS as “my agency.”
Amici Wayne Thomas similarly says that his
siblings who were not placed in CSS-certified foster
homes had much different childhoods than his: “They
were left alone. They worried about what they would
have to eat.” But life at his foster mother Meme’s house
was different for Wayne and his brother Sean.
B. CATHOLIC-RUN AGENCIES LIKE CSS
GREATLY BENEFIT CHILDREN AND
THEIR FOSTER/ADOPTIVE PARENTS
Many aspiring foster and adoptive parents choose
Catholic-run agencies to help them navigate the
process of fostering or adopting their child. Some foster
or adoptive parents are religious themselves and want
to work with an agency holding their same values.
Children and foster and adoptive parents benefit from

26
the child-centered focus of Catholic-run foster and
adoption agencies.
Amici Thomas Paul is thankful for CSS’ role in
arranging for the parochial school education he enjoyed
as a child. Fond memories of his time at that grade
school returned to Thomas during a recent contract he
performed resurfacing the concrete sidewalks
surrounding the school.
Amici Winnie Perry, although not Catholic herself,
never considered working with an agency other than
CSS. Perry and CSS have been partners for the past 40
years. One of Ms. Perry’s foster daughters, amici
Adrienne Cox, credits Ms. Perry’s desire to run a
Christian home with this long-lasting collaboration.
Amici Karen Quinn first became a foster mother
after reading in a Sunday bulletin about the need for
foster homes for children. Ms. Quinn considers her
Catholic faith the inspiration for her commitment to
foster parent for 30 years, and she wants to continue to
care for at-risk children as a CSS-certified foster
parent.
Amici Jamie Hill similarly observes that her
mother’s decision to foster was a “calling from God.”
Amici Andreas and Michelle Widmer credit Catholic
Charities of Boston for faithfully applying the Catholic
Church’s understanding of “the integral development
of the human person.”
Amici Ben and Gaia Rovagnati note that Catholic
Charities of Chicago embraced Catholic teaching by

27
always seeking the good of the child, the birthparents,
and adoptive families.
CSS connected amici Wayne Thomas and his foster
mother petitioner Sharonell Fulton to the many
educational opportunities offered by the Catholic
Church in Philadelphia. While in middle school, Wayne
traveled to Germany as his school’s representative at
World Youth Day. Wayne “met so many people from all
over the world” and counts many of the people he met
on that trip as his friends today. Thanks to vocational
training at Mercy Catholic High School, Wayne learned
skills he still uses in his career as a HVAC technician.
C. CATHOLIC-RUN AGENCIES LIKE CSS
SUPPORT PERMANENT HOMES FOR
NEEDY CHILDREN
Catholic-run foster and adoption agencies work with
foster and adoptive parents, birth parents, and
extended relatives toward finding a child’s best option
for a permanent home.
CSS helped provide amici Thomas Paul and his
brother Sean a loving and stable home with the Pauls.
Thomas is proud to be an adopted child in the Paul
family.
Long-time CSS-certified foster parent and amici
Karen Quinn embraced the goal of connecting foster
children with relatives. She reached out to an out-ofstate foster family so that her foster son Gabriel could
visit with his biological siblings during a family trip.
Quinn and her husband also adopted several of their
foster children when the best permanent home for the
child was the Quinn home.

28
Amici Winnie Perry encouraged the birth mother of
her foster child amici Adrienne Cox to keep ties with
Adrienne and arranges visits with the grandmother of
her now-adopted children James and Julia.
Amici Amanda Kapenga and her husband Dan are
thankful that Catholic Charities of West Michigan has
a center where their foster children can visit with
biological parents. Additionally, Amanda appreciates
working with an agency that has dual foster and
adoption programs as she and Dan desire to adopt their
two current foster children.
Amici Andreas and Michelle Widmer considered
several adoption agencies after deciding to adopt a
child. They don’t regret choosing Catholic Charities of
Boston. Almost 16 years after Catholic Charities
facilitated Eli’s adoption, the Widmers are thankful to
the agency’s staff for explaining the realities of
adoption and encouraging them from the beginning to
focus on the needs of their child.
Catholic Charities of Chicago taught amici Ben and
Gaia Rovagnati that adoption is not a transaction but
rather an opportunity to care for a child and become a
family.
CSS and foster mother petitioner Sharonell Fulton
encouraged amici Wayne Thomas to maintain a
relationship with his biological parents and siblings.
Wayne enjoyed CSS-supervised visits while his parents
were recovering from addiction. And when Wayne’s
parents stayed clean, Meme included them in family
celebrations at her home.

29
D. CSS DOES NOT INTERFERE WITH THE
INTERESTS OF SAME-SEX COUPLES
CSS, a ministry of the Archdiocese of Philadelphia,
operates consistent with Catholic teaching. Its
adherence to Church teaching is not rooted in animus
against same-sex attracted people. Further, it does not
bar same-sex couples from serving as foster parents.
Philadelphia remains free to place children with samesex foster parents. Twenty-nine of the thirty agencies
working with the City are willing to certify same-sex
couples as foster parents. Fulton, 922 F.3d at 147, 149
n.2. A decision in favor of CSS does not prevent the
City from continuing to use its public outreach to
promote foster parenting among same-sex households,
nor would it interfere with the efforts of advocacy
groups like Intervenor-Respondents. In short, the City
need not coerce CSS into publicly promoting the City’s
views or demand as a condition for placing needy
children that CSS alter its sincerely-held religious
beliefs.
E. ACCOMMODATING CSS’ SINCERELYHELD BELIEFS HAS FAR-REACHING
BENEFITS FOR NEEDY AND
VULNERABLE CHILDREN
The Philadelphia story is not unique. Catholic foster
care and adoption agencies in Washington, D.C.,
Boston, San Francisco, the State of Illinois, and
Buffalo, New York have closed in the face of similar

30
ideological pressures.9 Government officials from the
State of Michigan have entered into a settlement
agreement requiring all private adoption and foster
care agencies to work with same-sex couples, despite a
state law specifically offering accommodations for faithbased agencies.10 Two separate lawsuits have been filed
to prevent state officials from taking adverse action
against Catholic-run foster care and adoption
agencies.11
Amici Andreas and Michelle Widmer were among
the last couples to adopt through Catholic Charities of
Boston before the agency was forced to close. Andreas
credits the agency for preparing them to parent their
son Eli. “Catholic Charities,” says Andreas, “had builtin the reality of adoption.”
9

See United States Conference of Catholic Bishops,
“Discrimination against Catholic Adoption Services,”
http://www.usccb.org/issues-and-action/religious-liberty/discrimina
tion-against-catholic-adoption-services.cfm (last visited June 1,
2020); “After 95 years, NY rules end Catholic adoption and foster
services in Buffalo,” Catholic News Agency (Aug. 27, 2018),
https://www.catholicnewsagency.com/news/after-95-years-ny-rulesend-catholic-adoption-and-foster-services-in-buffalo-60894
10

See Dumont v. Gordon, No. 2:17-cv-13080-PDB-EAS (E.D. Mich.
2019) (Stipulation of Voluntary Dismissal with Prejudice),
https://s3.amazonaws.com/becketnewsite/Dumont-StipulatedDismissal-and-Settlement-Agreement.pdf

11

See, e.g., Buck v. Gordon, No. 1:19-CV- 286, 2019 WL 4686425,
at *7 n.9 (W.D. Mich. Sept. 26, 2019) (granting preliminary
injunction to preserve status quo); Catholic Charities of Western
Michigan v. Michigan Dept. of Health and Human Services, No. 19000072-MM (Michigan Court of Claims) (Complaint),
http://www.adfmedia.org/files/CatholicCharitiesWestMichiganC
omplaint.pdf

31
Amici Amanda Kapenga and her husband Dan have
partnered with Catholic Charities of Western Michigan
for almost a decade to foster needy children in their
community. The couple hopes their home can be the
“forever home” for the two young children they are
currently fostering. Catholic Charities is coordinating
their adoption. This fruitful and long-term relationship
may be cut short if the state refuses to renew the
agency’s license to coordinate adoptions.
Amici Ben and Gaia Rovagnati are open to adopting
another child. They wish Catholic Charities of Illinois
were still operating as a placing agency to support
them.
Clear guidance from this Court will help resolve
pending actions and avoid future closures.
III.

AN EXEMPTION FOR CSS IS REQUIRED
UNDER THE FIRST AMENDMENT AND
CONSISTENT WITH THIS COURT’S
DECISION IN OBERGEFELL

There is a troubling trend of state and local
governments disregarding the protections offered by
the First Amendment.12 The City’s refusal to renew
CSS’ annual foster care placement agreement is
another variation on this theme. Its practice of
allowing for exceptions from its anti-discrimination
policy, antagonism toward CSS’ sincerely-held religious
beliefs, suspect application of anti-discrimination
12

See e.g., NIFLA v. Becerra, 138 S. Ct. 2361 (2018); Masterpiece
Cakeshop, Ltd. v. Colorado Civil Rights Comm., 138 S. Ct. 1719
(2018); and Trinity Lutheran Church of Columbia, Inc. v. Comer,
137 S. Ct. 2012, 2022 (2017).

32
policies, and its after-the-fact rationalizations
overshadow any genuine interest that all
Philadelphians respond to the foster care crisis.13 This
Court must not allow the City to weaponize a “neutral”
anti-discrimination policy in order to exclude CSS from
its foster care program.14
When this Court, in Obergefell v. Hodges, decided in
favor of government recognition of the legal character
of marriage between two people of the same sex, it
specifically acknowledged that religious objection to its
expansive legal definition of marriage deserved
constitutional protection.
[I]t must be emphasized that religions, and
those who adhere to religious doctrines, may
continue to advocate with utmost, sincere
conviction that, by divine precepts, same-sex
marriage should not be condoned. The First
Amendment ensures that religious organizations
and persons are given proper protection as they
seek to teach the principles that are so fulfilling
and so central to their lives and faiths, and to
their own deep aspirations to continue the
family structure they have long revered.” 135
S. Ct. 2584, 2607 (2015) (emphasis added).

13

As this Court observed in Masterpiece Cakeshop, reviewing
courts should consider historical background to assess government
neutrality. 138 S. Ct. at 1731; see also Church of the Lukumi
Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 540 (1993).
14

This Court should revisit Employment Div. v. Smith, 494 U.S.
872 (1990) and replace it with a clear standard more protective of
free exercise.

33
The City’s demand that private foster care
placement agencies provide written endorsements for
same-sex married couples should include an exemption
for religious objectors like CSS. Such an
accommodation is the “proper protection” of free
exercise and free speech rights under the First
Amendment.15
CONCLUSION
Severing ties with Catholic-run foster care and
adoption programs, under the guise of enforcing
“neutral” anti-discrimination laws, is the equivalent of
hanging a “Catholics Need Not Apply” sign outside of
every state and local health and human services
department. Such a precedent is odious to the
Constitution’s guarantees of free speech and the free
exercise of religion. Such a precedent should not stand.
For the sake of the many children in need in
Philadelphia and across the country, amici respectfully
request this Court to reverse the decision below.

15

See also, John Corvino, Ryan T. Anderson & Sherif Girgis,
Debating Religious Liberty and Discrimination, 112 (2017)
(Scholars Ryan T. Anderson and Sherif Girgis state that the
“material and social effects of the legal recognition of same-sex
marriages can be achieved without curbing private parties’
freedoms of religion, conscience, or association.”); Luke Goodrich,
Free to Believe: The Battle over Religious Liberty in America, 109
(2019) (accommodating religious objection to same-sex marriage in
government contracting “isn’t just about protecting [objectors’]
rights; it’s about protecting the most vulnerable members of
society.”).

34
Respectfully Submitted,
Andrea Picciotti-Bayer
Counsel of Record
The Catholic Association Foundation
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

